HHS/OIG-Audit--"Review of Medicare Contractor's Overfunded Pension Plan, Blue Cross and Blue Shield Association, (A-07-98-02528)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Contractor's Overfunded Pension Plan, Blue Cross
and Blue Shield Association," (A-07-98-02528)
March 10, 1999
Complete Text of Report is available in PDF format
(570 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Medicare Contractor's
Overfunded Pension Plan, Blue Cross and Blue Shield Association. During our
previous review of the Blue Cross and Blue Shield Association (the Association)
(CIN: A-07-95-01109), we determined that the Medicare segment accumulated $492,293
in unabsorbed credits as of January 1, 1994. The unabsorbed credits were created
by negative CAS pension costs, which resulted from the overfunded status of
the Association's pension plan. Our current review shows that the accumulated
unabsorbed credits increased to $710,699 as of December 31, 1995. The increase
resulted from appreciation on the accumulated unabsorbed credits, and from additional
negative CAS pension costs for 1994 and 1995.
The CAS relating to the accounting for pension costs was revised effective March
30, 1995, and became applicable to the Association on January 1, 1996. The revised
CAS requires that accumulated unabsorbed credits and negative CAS pension costs
be assigned to subsequent accounting periods, as an "assignable cost credit".
Additionally, the revised CAS requires that assignable cost credits be amortized
over ten years.
We recommend that the Association identify $710,699 as an assignable cost credit,
attributable to the Medicare segment, as of January 1, 1996. The Association
accepted our recommendations.